Office	of	Inspector	General


MEMORANDUM

TO:                  IAF President and CEO, Robert N. Kaplan

FROM:                Acting AIG/A, Melinda Dempsey/s/

SUBJECT:             Audit of the Inter-American Foundation’s Financial Statements for Fiscal Years
                     2013 and 2012 (Audit Report No. 0-IAF-14-003-C)

With this memorandum, the Office of Inspector General (OIG) transmits the audit report
prepared by the certified public accounting firm of Brown & Company, CPAs, PLLC, on the
financial statements as of September 30, 2013 and 2012, of the Inter-American Foundation
(IAF). OIG contracted with this independent auditor to audit the financial statements.

The independent auditor expressed an unmodified opinion on IAF’s fiscal year 2013 audited
financial statements and notes. The report states that the financial statements presented fairly,
in all material respects, IAF’s financial position, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2013 and 2012, in
conformity with accounting principles generally accepted in the United States of America.

The report contains no material weaknesses, one significant deficiency in IAF’s internal control
over financial reporting, and no instances of noncompliance with selected applicable provisions
of laws, regulations, contract, and grant agreements.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted government auditing standards issued by the
Comptroller General of the United States; and the Office of Management and Budget Bulletin
14-02, Audit Requirements for the Federal Financial Statements, as amended.

In connection with our contract, we reviewed the independent auditor’s related audit
documentation. Our review was different from an audit; in accordance with the auditing
standards discussed above, our review was not intended to enable us to express, and we do
not express, an opinion on IAF’s financial statements. Also, we did not express conclusions on
the effectiveness of IAF’s internal control or on IAF’s compliance with applicable provisions of
laws, regulations, contract, and grant agreements.

The independent auditor was responsible for the attached auditor’s report dated December 6,
2013 and the conclusions therein. Our review disclosed no instances where the independent
auditor did not comply, in all material respects, with the auditing standards discussed above.


U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
The Office of Inspector General appreciates the cooperation and the courtesies extended to our
staff and the staff of Brown & Company, CPAs, PLLC, during the audit. If you have questions
concerning this report, please contact Rohit Chowbay at (202) 712-1317.
            INTER-AMERICAN FOUNDATION




FINANCIAL STATEMENTS AND INDEPENDENT AUDITOR'S REPORT

      For the Fiscal Years Ended September 30, 2013 And 2012
                            INTER-AMERICAN FOUNDATION
                               FINANCIAL STATEMENTS
                FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 AND 2012



                                 TABLE OF CONTENTS

AGENCY HEAD MESSAGE                                                      3

MANAGEMENT DISCUSSION AND ANALYSIS                                       13

PERFORMANCE SECTION                                                      15


FINANCIAL SECTION

CFO LETTER                                                               22

INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS                 24

BALANCE SHEET                                                            31

STATEMENT OF NET COST                                                    32

STATEMENT OF CHANGES IN NET POSITION                                     33

STATEMENT OF BUDGETARY RESOURCES                                         34

NOTES TO THE FINANCIAL STATEMENTS                                        35
                 Inter-American Foundation
                 An Independent Agency of the U.S. Government



                  PERFORMANCE AND ACCOUNTABILITY REPORT (PAR)

Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the United
States government, promotes and invests in citizen-led development in Latin America and the
Caribbean to help communities thrive. Created in 1969, the IAF responds to innovative,
participatory and sustainable self- help development projects proposed by grassroots groups and
organizations that support them. The IAF encourages partnerships among community organizations,
businesses and local governments directed at improving the quality of life for poor people and
strengthening their capacity to engage as citizens in their communities. To contribute to a better
understanding of the development process, the IAF shares its experiences and the lessons it learns
with its grantee partners.

The IAF is governed by a nine-person board of directors appointed by the President of the United
States and confirmed by the U.S. Senate. Six members are drawn from the private sector and three
from the public sector. The board is assisted by an advisory council. A president, appointed by the
board, serves as the Inter-American Foundation’s chief executive officer, managing a staff of 41
employees based in Washington, D.C. The IAF is organized into five offices: Executive, including
the president and general counsel; Program; Operations; External and Governmental Affairs; and
Evaluation.

Despite positive macroeconomic performance in some countries, poverty, glaring inequality and social
exclusion persist and, together with chronic violence and insecurity, are at the root of the most serious
challenges the United States faces in our relations with the countries of the region. In this context, and
consistent with the Presidential Directive on Global Development, the IAF contributes to U.S. foreign
policy objectives by providing its specialized expertise, experience and programmatic focus on citizen-
led community development so that poor and marginalized groups have an opportunity to participate in
local economic growth and engage in civic life. The IAF coordinates with and complements other U.S.
government agencies and mobilizes local and international private contributions, including from local
partners and community beneficiaries of the IAF’s assistance.

The IAF is effective for the following reasons:

    It is responsive to the challenges, priorities and solutions emerging directly from organized poor
    communities, who demonstrate their ownership and responsibility towards improving their
    circumstances.
    It is results-oriented, investing modest grants to support projects that yield high returns and help
    communities manage risk, and strengthening the capacity of local groups to continue working after
    the IAF’s support ends.
    It insists that communities show leadership and that they commit their own resources to ensure that
    projects are effective and sustainable. On average, they provide about $130,000 for every $100,000
    contributed by the IAF.
    It is efficient and operates with minimal bureaucracy.
    It has the flexibility to adjust quickly to changing conditions and continue engagement at the
    community level even when bilateral relations are strained.

                                                         3
In 2013 the IAF invested in 58 new grants and 35 supplemental grants to organizations in 18 countries.
Many of these grants directly benefit African descendants, indigenous communities, persons with
disabilities and disadvantaged women and youth, providing opportunities for these historically excluded
groups to participate more fully in economic and civic life. Application of the Grassroots Development
Framework (GDF), the IAF’s analytical tool for ensuring that investments contribute meaningfully to real
community development results, allows the agency to choose higher-impact projects and assess how its
investments yield long-term development benefits that extend far beyond the grantees’ immediate
objectives.

Effective community development requires citizens themselves to play a leading role. All IAF grantee
partners are required to contribute to their projects in cash or in kind, as the IAF’s experience shows
that community groups are more likely to succeed if they have a stake in the outcome. The IAF also
expects grantees to mobilize additional resources and collaborate with their local and central
governments, local businesses and other organizations so that progress continues after IAF funding
ceases. As a result of these efforts, counterpart resources committed in 2013 totaled $16,6 million, more
than matching the IAF’s investment of $12.6 million.

As a small agency with relatively limited resources, the IAF can only achieve impact at scale by
working in partnership with and inspiring others who can invest in helping poor communities thrive.
One example, created by the IAF ten years ago, is the RedEAmérica network of corporate foundations in
the region. Today, that network has grown to over 70 dues-paying members supported by over 350
corporations in 11 countries. When the IAF invests in citizen-led development efforts with
RedEAmérica members, they commit to providing more than double the IAF’s contribution. More
important is the fact that RedEAmérica members or their parent corporations continue to invest in
grassroots development on their own, applying tools created with the IAF to select projects and track
results. In 2013, the IAF and RedEAmérica established the first Latin American Grassroots
Development Award, known by its Spanish name Transformadores. The time is ripe for the IAF to
approach other private partners as well to increase the leverage of its appropriation and draw more
resources into effective citizen-led community development investments.

The Presidential Directive on Global Development calls for coordination among U.S. agencies. The IAF
has taken concrete steps in the last two years to do so and will continue to deepen and broaden efforts in
FY14 and beyond. The IAF’s specialized expertise and assistance complements the efforts of other
agencies and increases the return on the total U.S. investment, ensuring that more poor and marginalized
communities will benefit. The IAF collaborates with the U.S. Department of State and others to advance
important foreign-policy priorities through the Partnership for Growth (PfG), and broader regional
initiatives and projects such as the Inter-American Social Protection Network (IASPN), the Joint Action
Plan to Eliminate Racial and Ethnic Discrimination and Promote Equity (JAPER) and the Americas
Partnership on Social Inclusion and Equality (APSIE).




                                                     4
                          Annual Performance Report (APR)
              Accomplishments of the Annual Performance Measures for FY 2013

In FY 2013 the Inter-American Foundation received an appropriation of $21,360,915 for program and
program support activities, which was supplemented by $4,207,978 from the Social Progress Trust Fund,
by $113,655 in carry-over funds and by $151,355 in donations from external sources. The total budget
authorized for FY 2013 was $25,833,903.

Strategic Goal One: Support the coordinated efforts of the poor to improve their
material circumstances, strengthen their organizations, and enhance the social and
economic environment for community-led development.

Performance Measure 1.1: Funding actions in the fiscal year that enhance communities’
capacities to design and execute development projects and materially improve the quality of
life of beneficiaries, as evidenced by measurable indicators.

                                    FY          FY        FY          FY         FY          FY
                                    2012        2013      2013        2013       2014        2015
                                    Results     Goal      Results     Rating     Goal        Goal
Number of funding actions           126         75        93          Above      88          101
                                                                      target
The IAF responds to an average of 600 proposals it receives each year. In FY 2013, the Foundation
awarded 58 new grants to grassroots and nongovernmental organizations. The IAF also provided
supplementary resources in FY 2013 to 35 organizations it had funded in prior years that showed
great promise in reaching and expanding on their objectives.

Performance Measure 1.2: Percentage of projects ending in the prior fiscal year that met or
exceeded outcome goals specified for each project.

                                    FY          FY        FY          FY         FY          FY
                                    2012        2013      2013        2013       2014        2015
                                    Results     Goal      Results     Rating     Goal        Goal
Percentage of projects that met     75%         80%       75%         Below      80%         80%
outcome goals                                                         target
Of the 44 grantee partners whose funding ended in fiscal 2012, 75% (33 grantee partners) met or
exceeded the goals specified for each project. Those who did not meet the planned goals listed
reasons such as staff turnover and conflicts, insufficient training to fully meet project goals, and
poor coordination and collaboration with local groups.

Performance Measure 1.3: Specific accomplishments reported by grantee partners active in
the prior fiscal year, evidenced by measurable indicators, which improved the quality of
beneficiaries’ lives, changed the social and economic contexts in which they act, or enhanced
their communities’ capacity to take the lead in their own development.

                                FY              FY        FY          FY         FY          FY
                                2012            2013      2013        2013       2014        2015
                                Results         Goal      Results     Rating     Goal        Goal
Number of beneficiaries         63,466          85,000    111,718     Above      100,000     100,000
trained, jobs created/saved,                                          target

                                                  5
individuals with improved
health, and partnerships
developed
Of the 267 active grantee partners in fiscal 2012, 78% (208 grantee partners) reported specific
accomplishments such as:
       74,850 new beneficiaries acquired knowledge and skills through IAF-funded training.
       7,175 created, saved or improved jobs.
       33,700 individuals improved health.
       9,269 partnerships and collaborations with development groups in their communities
IAF grantee partners mobilized and brokered $3.76 million to further project activities beyond their
required counterpart commitment.




Strategic Goal Two: Promote the social inclusion and civic participation of traditionally
marginalized groups.


Performance Measure 2.1: Funding actions in the fiscal year that enhance the opportunities
for traditionally marginalized groups to become effective actors in the design and execution of
projects that improve their quality of life and their participation in the development process.

                                    FY        FY         FY         FY        FY         FY
                                    2012      2013       2013       2013      2014       2015
                                    Results   Goal       Results    Rating    Goal       Goal
Number of funding actions           71        53         66         Above     62         72
supporting traditionally                                            target
marginalized groups
The IAF has a rich history of supporting marginalized and disenfranchised groups. In FY 2013, 66
funding actions (71%) went to projects that directly focus on the inclusion of African descendants
(15), Indigenous (21), People with disabilities (1), Women (15), and Youth (14).

Performance Measure 2.2: Events, exchanges and other knowledge-generation efforts to
enhance the participation of traditionally marginalized groups in the development process
and contribute to what is known about how these groups can most effectively take action to
improve their quality of life.

                                    FY        FY         FY         FY        FY         FY
                                    2012      2013       2013       2013      2014       2015
                                    Results   Goal       Results    Rating    Goal       Goal
Number of events with                 N/A     25         32         Above     32         32
traditionally marginalized                                          target
groups
Performance Measure 2.3: Specific accomplishments, reported by project partners active in
the prior fiscal year, evidenced by measurable indicators that improved the quality of life of
traditionally marginalized groups and their opportunities to participate in the development
process.


                                                 6
                                      FY         FY       FY        FY       FY          FY
                                      2012       2013     2013      2013     2014        2015
                                      Results    Goal     Results   Rating   Goal        Goal
Number of beneficiaries trained,      N/A        60,000   56,282    Below    60,000      60,000
jobs created/saved, individuals                                     target
with improved health, and
partnerships developed
Of the 128 active grantee partners working with 58,282 marginalized individuals in fiscal 2012
reported specific accomplishments such as:
       51,631 new beneficiaries acquired knowledge and skills through IAF-funded training.
       4,225 created, saved or improved jobs.
       426 individuals received medical attention via three grantee partners.
       980 new partnerships and collaborations were formed with other community development
       groups.
Grantee partners also applied their development methods and practices to other communities and
contexts, resulting in broader participation and better treatment of marginalized groups.


Strategic Goal Three: Make knowledge-generation and knowledge- management an
integral part of our work, informing new approaches for smarter investments by IAF
and others.

Performance Measure 3.1: Funding actions, events, conferences, exchanges, and other
efforts that directly enhance the opportunities for generating and disseminating new
knowledge about development and for promoting interactive learning among IAF partners in
the region and other development actors and thought leaders.

                                       FY         FY      FY        FY       FY       FY
                                       2012       2013    2013      2013     2014     2015
                                       Results    Goal    Results   Rating   Goal     Goal
Number of grants, supplemental         N/A        58      69        Above    62       71
grants, and travel grants that                                      target
supported events, conferences,
exchanges, and other interactions
among partners that generate or
disseminate information
Number of supported participants       294        >200    221       Above    >200     >200
in activities that directly enhance                                 target
information dissemination
In FY 2013, the IAF supported 215 individuals as participants in at least 33 events, conferences
and exchanges that enhanced their learning and sharing of knowledge among partners in the
region, development actors and thought leaders. Many of those sponsored were members of
marginalized groups, including African descendants, indigenous peoples, persons with disabilities,
women and young people.

       Performance Measure 3.2: Publications and other media products, including
       ex-post assessments of IAF grants, that effectively distribute to strategically

                                                  7
       targeted audiences new knowledge about citizen-led development.

                                      FY        FY        FY        FY       FY        FY
                                      2012      2013      2013      2013     2014      2015
                                      Results   Goal      Results   Rating   Goal      Goal
Number of publications and other      2         17        37        Above    45        50
media products on citizen-led                                       target
development
The IAF invested in new publications in fiscal 2013. The IAF website has become the principal
distribution mechanism for the information contained in IAF publications. Publications in print were
distributed to select audiences, including private sector partners, universities, congressional
audiences and active grantees. In addition staff distributed materials ad hoc to approximately 25
other individuals and/or organizations.
The 2013 journal focuses on the IAF’s 40-plus-years of investment in young people, highlighting
with a few examples the grassroots organizations that have assured generations of disadvantaged
children and adolescents the healthy start, effective education, connections with caring adults,
development of talent and skills, grooming in citizenship and personal validation that lead to a
meaningful place in society.
IAF has translated into Spanish Rethinking Corporate Social Engagement: Lessons from Latin
America, in which author Lester Salamon summarized his IAF-funded research on socially
responsible businesses and their work at the grassroots
The Office of Evaluation conducted five ex-post assessments of former IAF grantees whose funding
had terminated five years prior. Summaries of these assessments were posted to the IAF website
in English in fiscal 2013, along with summaries of eight assessments conducted in previous fiscal
years.
The IAF created a new “Stories from the Field” section of its website, which highlights the
experiences and lessons of IAF-funded organizations.

Performance Measure 3.3: Funded research and knowledge-generation activities, including
fellowships in support of doctoral research that adds to the body of knowledge related to
citizen-led development.

                                      FY        FY        FY        FY       FY        FY
                                      2012      2013      2013      2013     2014      2015
                                      Results   Goal      Results   Rating   Goal      Goal
Number of fellowships for             16        15        16        Above    15        15
research that support citizen-led                                   target
development
Number of grants and                  20        30        45        Above    41        46
supplemental grants that support                                    target
research, study, analysis, or
knowledge products related to
citizen-led development
In fiscal 2013, the Inter-American Foundation awarded Grassroots Development Fellowships to 16
Ph.D. candidates at 11 U.S. universities undertaking dissertation research in seven Latin American
countries during the coming year. The Fellows were selected on the strength of their academic
record, their proposals and their potential contribution to grassroots development. Eight of the
Fellows are U.S. citizens, and eight are citizens from four Latin American countries.


                                                 8
Current and former Fellows total more than 1000. 22 recent Fellows reported on their IAF-funded
research at the 2013 Congress of the Latin American Studies Association held in Washington, D.C.
in May.
During fiscal 2013, the IAF advanced the Chronic Violence Learning Project, initiated at the end of
fiscal 2012. With this participatory research the IAF will enhance understanding of how violence
affects grantee partners and their community initiatives and what strategies they can take to
prevent and minimize the negative consequences of violence. With this information, the IAF will
examine its institutional processes for selecting and accompanying grantee partners that live and
work in areas of chronic violence, develop strategies and partnerships to sustain this support and
create resources to help inform broader U.S. government initiatives.

Performance Measure 3.4: Institutional knowledge-management plan implemented.

                                      FY        FY         FY        FY       FY       FY
                                      2012      2013       2013      2013     2014     2015
                                      Results   Goal       Results   Rating   Goal     Goal
Implementation of grant               N/A       N/A        N/A       N/A      Yes      N/A
management system
Plan and request for proposal for a new grants management system is complete and ready to
implement for FY 2014.


Strategic Goal Four: Increase awareness, understanding and support for the IAF
and its programs among key audiences in order to draw more resources into
grassroots development.

Performance Measure 4.1: Metrics on visits to the IAF website and utilization of
associated online information and resources.

                                FY         FY          FY        FY           FY       FY
                                2012       2013        013       2013         2014     2015
                                Results    Goal        Results   Rating       Goal     Goal
Number of website visitors      N/A        50,000      67,945    Above        75,000   100,000
                                                                 target
The IAF has made significant strides in fiscal 2013 towards developing new communication
channels and new media for sharing IAF’s information and lessons. The IAF’s new website
(www.iaf.gov) is designed to promote the electronic distribution, among our partners and far
beyond, of new knowledge about what works best. It has generated 313,273 new page views from
57.004 new visitors since October 2012. 60.98% of visitors were new to the website. The IAF
rolled out the website in three more languages in August and is generating more traffic.
In the IAF’s first year of managing a Twitter account, the IAF has attracted more than 200
followers and sent more than 200 “tweets” (messages).

Performance Measure 4.2: External speaking engagements or participation of IAF staff in
public forums.

                                FY         FY          FY        FY           FY       FY
                                2012       2013        2013      2013         2014     2015
                                Results    Goal        Results   Rating       Goal     Goal
Number of external speaking     N/A        5           8         Above        10       15

                                                  9
    events with IAF participation                                     target



    Performance Measure 4.3: Media coverage, press releases and grantee project recognition.

                                    FY         FY          FY         FY         FY         FY
                                    2012       2013        2013       2013       2014       2015
                                    Results    Goal        Results    Rating     Goal       Goal
    Number of media events          >5         >5          >5         Met        10         15
                                                                      target
    The IAF regularly monitors both earned and social media coverage that involves the agency as well
    as grantee partners. Though more difficult to track, grantee press and media coverage is one of the
    optional indicators that IAF grantee partners can choose to monitor over the course of their grant.
    More than one-third of IAF grantees have opted for and report on this indicator at six-month
    intervals.
    The IAF utilizes its website to publicize major recognition that IAF grantee partners receive in the
    press and other media channels. During FY 2013, the IAF has highlighted more than 17 instances
    of significant coverage of the IAF, IAF grantees or former grantees.

    Performance Measure 4.4: Total committed dollar amount of in-kind and cash resources
    contributed and mobilized by grantees.

                                    FY         FY          FY         FY         FY         FY
                                    2012       2013        2013       2013       2014       2015
                                    Results    Goal        Results    Rating     Goal       Goal
    Dollar value committed          $23.2      $17.8       $16.6      Below      $15.3      $18.3
    in counterpart from             million    million     million    target     million    million
    grantees

    Despite continuing economic difficulties in the region, IAF grantees were able to mobilize a
    higher portion of total project costs, meeting the goals.

    Performance Measure 4.5: Funds secured as a result of private- sector, inter-governmental
    or individual donation, investment or other sponsorship of IAF activities.

                                    FY         FY          FY         FY         FY         FY
                                    2012       2013        2013       2013       2014       2015
                                    Results    Goal        Results    Rating     Goal       Goal
    Dollar value of outside         N/A        $1          $450K      Below      $1.1       $2 million
    funding sources                            million                target     million
    The FY 2013 Result includes negotiations concluded with the C.S.Mott Foundation ($150,000 for
    investment in development of community foundations in Mexico) and Department of State
    ($300,000 for the America’s Partnership on Social Inclusion and Equity.
    IAF is actively engaged in partnership discussions with private sector firms.


Strategic Goal Five: Modernize and strengthen our operations.

      Performance Measure 5.1: Metrics associated with elapsed time from receipt of

                                                    10
       proposal to definitive decision on funding.

                                     FY         FY          FY         FY         FY         FY
                                     2012       2013        2013       2013       2014       2015
                                     Results    Goal        Results    Rating     Goal       Goal
Number of days from proposal         N/A        232         211        Above      190        171
to President’s approval or                                             target
rejection notification

       Performance Measure 5.2: Re-engineering system of grants approval, monitoring,
       and evaluation supported by versatile grants-management system in place.

                                     FY         FY          FY         FY         FY         FY
                                     2012       2013        2013       2013       2014       2015
                                     Results    Goal        Results    Rating     Goal       Goal
Implementation plan developed        N/A        N/A         N/A        N/A        Yes        N/A
System in place                      N/A        N/A         N/A        N/A        N/A        Yes

       Performance Measure 5.3: New performance evaluation system in place.

                                     FY         FY          FY         FY         FY         FY
                                     2012       2013        2013       2013       2014       2015
                                     Results    Goal        Results    Rating     Goal       Goal
System in place                      N/A        N/A         N/A        N/A        Yes        N/A

       Performance Measure 5.4: Improved results on Grantee Perception Survey
       compared with previous survey.

                                     FY         FY          FY         FY         FY         FY
                                     2012       2013        2013       2013       2014       2015
                                     Results    Goal        Results    Rating     Goal       Goal
Higher positive response versus      N/A        N/A         N/A        N/A        N/A        Yes
2011
A Grantee Perception Survey was not conducted in FY 2013.

    I am pleased to introduce the IAF’s FY 2013 financial statements, which reflect the IAF’s mission and
    core principles, including prudent stewardship of resources and transparency of our operations.

    The financial statements and performance results data are complete, reliable and in accordance with the
    Office of Management and Budget (OMB) requirements and in conformity with generally accepted
    accounting principles. The IAF has appropriate management controls in place to ensure that all internal
    controls are operating in accordance with applicable policies and procedures and are effective in meeting
    the requirements imposed by Federal Managers’ Financial Integrity Act (FMFIA) and Federal Financial
    Management Improvement Act (FFMIA).


    Signed:

    /s/
    Robert N. Kaplan
    President and CEO

                                                       11
                            Inter-American Foundation
                                                      as of September 30, 2013




                                                Board of Directors                                Advisory Council




                                                          President                            Office of the General Counsel
                                                                                                             General Counsel




                                                                  Office of External and                      Office of Evaluation
Office of Operations        Office of Programs
  Chief Operating Officer   Vice President for Programs           Governmental Affairs                             and Audit
                                                            Director for External and Governmental Affairs   Director for Evaluation and Audit




                                                                        12
                         MANAGEMENT DISCUSSION AND ANALYSIS

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots development programs. The IAF learns from its
experience, and uses the lessons learned to improve its own grant making decisions and to advance the
knowledge and success of development practitioners, donors and policy makers.

Mission and Organizational Requirements

The Inter-American Foundation funds self-help and participatory development efforts in ways that
support democracy and strengthen the bonds of friendship and understanding in the Western Hemisphere.
The IAF supports initiatives proposed by the organized poor in Latin America and the Caribbean to
improve their quality of life. IAF staff, representing the American government and people, maintain a
supportive relationship with the IAF’s grantee partners and the communities they serve during the course
of projects and, frequently, beyond. The IAF’s experiences are documented and shared with a broad and
diverse audience.

The IAF vision is a Latin America and the Caribbean region of thriving communities where people,
working together, direct their own lives as individuals and citizens. The IAF will continue to respond to
the best ideas from the region, empowering people by strengthening a vast infrastructure of community
groups and nongovernmental organizations that has become a highly effective and transparent channel for
effective foreign assistance. Because a broader resource base is crucial to an expanded IAF program, the
IAF will seek additional resources from various sources. The IAF will build on its well-documented
record of drawing local government, businesses, corporate foundations and transnational communities
into grassroots development. By disseminating the lessons of its investment to other donors, to
policymakers and to American taxpayers, the IAF can continue to contribute to a better understanding of
the importance and effectiveness of citizen-led community development in which the organized poor play
a leading role.




                                                   13
The FY 2013 funding actions are divided among primary program areas as follows:


                            FY13 Funding by Primary Program Area
                                           0.1%
                             2.0% 3.2%

                                                                        Agric./food prod.
                         10.3%                                          Education/training
                                                  24.4%
                                                                        Enterprise dev't
                   5.4%
                                                                        Corp. Soc.l Invest
                  4.0%
                                                                        Cultural express.

                                                                        Environment

                    20.1%                                               Health
                                                  30.4%
                                                                        Legal assistance

                                                                        Research/dissem.




                                                                     FY13
                      Theme                                             Percentage of
                                                         Funds $
                                                                          Funding
            Agriculture./food production                $3,063,508         24,4%
                 Education/training                     $3,821,318         30,4%
              Enterprise development                    $2,524,816         20,1%
             Corp. Social Investment                     $505,370           4,0%
                Cultural expression                      $683,933           5,4%
                   Environment                          $1,299,179         10,3%
                       Health                            $256,085           2,0%
                  Legal assistance                       $396,835           3,2%
              Research/dissemination                      $16,404           0,1%
                         Total:                      $12,567,448            100,0%




                                                   14
                               FY 2014 PERFORMANCE MEASURES

Mission: Promoting and investing in grassroots development to help communities thrive.

Vision: Thriving communities throughout Latin America and the Caribbean, where people direct their
own lives as individuals and citizens.

Strategic Goal One: Support the coordinated efforts of the poor to improve their material circumstances,
strengthen their organizations, and enhance the social and economic environment for community-led
development.

Problem/need/challenge addressed: Thriving communities depend on their citizens’ capacity to engage
each other in public and private association and to shape and respond to economic and social
opportunities. IAF promotes grassroots development through initiatives conceived, led and implemented
by community-based organizations of the poor and closely-linked support organizations, often
nongovernmental organizations (NGOs). Communities that have the capacity to take the lead in thinking
and working through their own development challenges form the democratic foundation that is the
region’s best hope for lasting peace, security, and economic progress.

By supporting these efforts of the organized poor, the IAF materially advances U.S. strategic interests in
the region. By being careful to base our investments on evidence about what works in grassroots projects,
we are adding to an empirically grounded body of knowledge about how to address these challenges more
effectively.
Contributing IAF programs: Grants for projects, support for exchanges and interaction among partner
communities and organizations, and investment in producing new knowledge about what works in
community-led development — all closely linked to a sophisticated monitoring and evaluation system
that measures results and helps partners adapt strategically to changing circumstances.
Contributing external U.S. government programs: The IAF consults with the respective U.S. Embassy
as part of the approval process for new grants each year. The IAF is also participating in and developing
inter-agency initiatives involving the Department of State, USAID, the Department of Housing and Urban
Development, and the Environmental Protection Agency.
Lead persons/positions: The Vice President for Programs and the Director of Evaluation lead a
Washington-based team and a network of skilled in-country consultants (enabling the IAF to perform its
grant making and evaluation functions in the most cost-effective manner).
Strategy and key measures: The IAF identifies and supports the best ideas for improving standards of
living and enhancing civic participation in democratic processes and institutions. Significantly, these
ideas come from the communities themselves, and local civil society organizations supporting these
communities. We also seek promising new ways to generate knowledge and transformative results for our
partner organizations and their communities. We continually sharpen our funding criteria to implement
this strategy and align our evaluation system with our evolving needs.

IAF helps improve the material conditions and associative capacity of communities by supporting
projects in a diverse array of thematic areas: income generation; small business development; community-
based natural resource management; water supply and sanitation; sustainable agricultural development;
improved access to domestic and foreign markets; enhanced public security and community resilience in
contexts of chronic violence; improved housing and nutrition; cultural expression and identity;
collaborative linkages between rural and urban communities; and others.

Before funding begins, all IAF-supported organizations identify specific indicators that are measured
periodically —usually twice a year — to provide empirical evidence of results generated. In addition, the
IAF offers its partners support for mid-course learning activities to enable partners to reflect on the


                                                   15
progress of their initiatives and identify and respond to challenges and opportunities not evident before
the projects began. The IAF conducts ex-post evaluations of a subset of its projects, revisiting the
participating communities five years after project completion, to assess evidence of long-term impacts.

Finally, IAF is engaging with funding partners — public and private and in the United States and abroad
— to channel greater and more sustainable flows of financial support to strong projects throughout the
region.

        Performance Measure 1.1: Funding actions in the fiscal year that enhance communities’
        capacities to design and execute development projects and materially improve the quality of life
        of beneficiaries, as evidenced by measurable indicators.

        Performance Measure 1.2: Percentage of projects ending in FY 2013 that met or exceeded
        outcome goals specified for each project.

        Performance Measure 1.3: Specific accomplishments reported by project partners active in FY
        2013, evidenced by measurable indicators, that improved the quality of beneficiaries’ lives,
        changed the social and economic contexts in which they act, or enhanced their communities’
        capacity to take the lead in their own development.

Strategic Goal Two: Promote the social inclusion and civic participation of traditionally marginalized
groups.

Problem/need/challenge addressed: Members of traditionally marginalized groups — including women,
African descendents, indigenous peoples and people with disabilities — are disproportionately
represented among the poor in Latin America and the Caribbean. They, as well as people with LGBT
identity, are also are most likely to be excluded from the civic life of their communities.
Contributing IAF programs: Grants for projects, support for exchanges and interaction among partner
communities and organizations, and investment in producing new knowledge about what works best in
promoting greater and more effective participation of traditionally marginalized groups.
Contributing external U.S. government programs: The IAF consults with the respective U.S. Embassy
as part of the approval process for new grants each year. The IAF will undertake an initiative involving
the Department of State (Americas Partnership on Social Inclusion and Equality), to promote social
inclusion in six countries. This will result in an inter-agency transfer of $400,000 to the IAF.
 Lead persons/positions: The Vice President for Programs and the Director of Evaluation lead a
Washington-based team and a network of skilled in-country consultants, enabling the IAF to perform its
grant- making and evaluation functions in the most cost-effective manner.
Strategy and key measures: The IAF makes a deliberate effort to identify and work with communities of
traditionally marginalized groups and with the associations and networks that represent their interests.
Special outreach helps bring new ideas from these groups into our program pipeline. The IAF also
supports conferences, exchanges, collaborative analytical efforts and other measures to help these
communities network and learn from each other.

        Performance Measure 2.1: Funding actions in the fiscal year that enhance the opportunities for
        traditionally marginalized groups to become effective actors in the design and execution of
        projects that improve their quality of life and their participation in the development process.

        Performance Measure 2.2: Events, exchanges and other knowledge generation efforts to
        enhance the participation of traditionally marginalized groups in the development process and
        contribute to what is known about how these groups can most effectively take action to improve
        their quality of life.


                                                    16
        Performance Measure 2.3: Specific accomplishments reported by project partners active in FY
        2013, evidenced by measurable indicators, that improved the quality of life of traditionally
        marginalized groups and their opportunities to participate in the development process.

Strategic Goal Three: Make knowledge-generation and knowledge- management an integral part of our
work, informing new approaches for smarter investments by IAF and others.

Problem/need/challenge addressed: The economic, social, political and technological contexts in which
our community-based partners live and work are changing at unprecedented speed. Consequently, the
need for careful, continuous attention to the generation, distribution and application of new knowledge
about community-led development is more important now than ever before.

The IAF was created in 1969 to be agile and innovative, helping to identify, test, and reflect upon
changing opportunities for community-led development. As part of every funding action, we will define
what we hope to learn, why those lessons are important, and what evidence we will capture and use to
produce new knowledge about the development process. In this more rigorously empirical approach to
our grantmaking, every funding action will explore a hypothesis about what works, what doesn’t work
and why.
Contributing IAF programs: Grants for projects, IAF fellowships for field work by Ph.D candidates at
U.S. universities, support for exchanges and interaction among partner communities and organizations,
and investment in producing, sharing and using new knowledge about what works in citizen-led
development.
Contributing external U.S. government programs: The IAF consults with the respective U.S. Embassy
as part of the approval process for new grants each year. The IAF is also participating in and developing
inter-agency initiatives involving the Department of State, USAID, the Department of Housing and Urban
Development, and the Environmental Protection Agency.
Lead persons/positions: The President takes a direct role in setting the knowledge agenda. The Vice
President for Programs and the Director of Evaluation lead a Washington-based team and a network of
skilled in-country consultants to identify and take action on knowledge generation opportunities. The
Director of External and Government Affairs leads a team that manages the IAF’s Ph.D fellowship
program and interacts with other knowledge partners.
Strategy and key measures: The IAF’s core strategy for knowledge- generation is to ensure that each
funding action has a knowledge- generation strategy and component embedded in its design, to support
real-time reflection during project implementation on what works and why. Additional support for what
we are calling learning enhancement measures enables partners to reflect at mid-course about emerging
dynamics and lessons not identified at the time of project design.

Our distinctive Grassroots Development Framework uses a well-established system of concrete indicators
and frequent visits by contracted data verifiers to collect evidence throughout each project on progress
toward results. This effort, managed by the IAF’s Office of Evaluation, is supplemented by Project
Histories compiled after funding ceases and by an ambitious program of ex-post evaluations of projects
five or more years after completion to assess the long-term impact of our investment.

A complementary strategy relies on the extraordinary capacity of our partners to teach and learn from
each other — the best teacher for a farmer is a similarly-situated farmer who has been successful. The
IAF invests considerable resources in meetings, exchanges, workshops and other events that enable our
partners to share what they are learning about citizen-led development. This is a particularly cost-
effective method for rapidly spreading the word about new knowledge on Next/Best Practices. By
supporting these efforts to help good ideas go viral, the IAF multiplies its development impact far beyond
our limited capacity to intervene directly.


                                                   17
Another complementary strategy is the exploration of new uses of media to identify and distribute new
knowledge. The IAF’s new website (www.iaf.gov) is designed to promote the electronic distribution,
among our partners and far beyond, of new knowledge about what works best. Moreover, the IAF has
initiated new partnerships with: a) a network of more than 3,000 ethnic media outlets in the US and
abroad that is dedicated to bringing the voices of the marginalized ethnic minorities, immigrants, young
people, the elderly — into the national discourse, and developing similar capacities on other countries;
and b) another media partner committed to enabling participating communities to use radionovelas and
other public-interest radio programming more effectively. The IAF is also putting low-cost video
equipment in the hands of grantee partners, to enable them to document visually what they are
accomplishing and is offering continued support for current and new partners in Latin America attempting
to apply other new media tools in service of community-led development.

The IAF’s Grassroots Development Fellowships support cutting-edge field research by Ph.D. candidates
in U.S. universities, contributing to the cadre of specialists in development and increasing exposure to
grassroots development as they become professionals and assume leadership roles throughout the region.

Finally, the IAF is engaged in an ongoing series of discussions with other thought-leaders in the areas of
community-led development and the related field of asset-based community development (ABCD). In FY
2014, we will continue a series of focused interactions with the Kettering Foundation, the Coady
International Institute, and the ABCD Institute at Northwestern University. This working collaboration
focuses on rethinking the logic of how communities thrive. In FY 2014, we will expand engagement with
corresponding Latin American thought-partners in this effort.

        Performance Measure 3.1: Funding actions, events, conferences, exchanges and other efforts
        that directly enhance the opportunities for generating and disseminating new knowledge about
        development and for promoting interactive learning among IAF partners in the region and other
        development actors and thought leaders.

        Performance Measure 3.2: Publications and other media products, including ex-post
        assessments of IAF grants, that effectively distribute to strategically targeted audiences new
        knowledge about citizen-led development.

        Performance Measure 3.3: Funded research and knowledge- generation activities, including
        fellowships in support of doctoral research that adds to the body of knowledge on citizen-led
        development.

        Performance Measure 3.4: Institutional knowledge-management plan implemented.

Strategic Goal Four: Increase awareness, understanding and support for the IAF and its programs
among key audiences in order to draw more resources into grassroots development.

Problem/need/challenge addressed: A broader resource base is crucial to the IAF’s vision of increased
support for grassroots development. In order to attract additional resources in support of its mission and
program, the IAF must increase the degree to which its work is recognized, understood and adequately
resourced.
Contributing IAF programs: Grants for projects, IAF fellowships for field work by Ph.D. students at
U.S. universities, evaluation and research initiatives, media initiatives, publications and diverse external
engagement with partners, donors and other key constituencies.
Contributing external U.S. government programs: The IAF is participating in and developing inter-
agency initiatives involving the Department of State, USAID, the Department of Housing and Urban


                                                     18
Development, and the Environmental Protection Agency. Expanded partnership efforts will be ongoing
throughout the planning period.
Lead persons/positions: The Director of External and Government Affairs provides overall strategic
guidance and leadership for this goal, coordinating the involvement of the IAF President, the Vice
President of Programs, the Director of Evaluation and their respective teams.
Strategy and key measures: The IAF will take advantage of opportunities to increase its visibility and
strengthen its position as an effective and experienced leader in grassroots development. It will pursue
partnerships with key private foundations, private-sector firms and other U.S. government agencies
interested in grassroots development. The IAF will offer its capabilities, expertise and operational
efficiencies to allow partners to invest resources efficiently and effectively through the IAF, rather than
bearing the cost of operational inefficiencies associated with unilateral investment. This increased
awareness of the IAF, its demonstrated results, and its value proposition should increase the number of
partners and volume of resources available. The IAF will also continue to expand opportunities in the
Latin American business sector through RedEAmérica, the IAF-initiated network of corporate
foundations that currently represents more than 360 Latin American companies committed to investing in
grassroots development. Lastly, the IAF will continue to require grantee partners to contribute counterpart
funding toward their projects and encourage them to obtain additional support for their efforts from local
government, businesses and philanthropic institutions.

        Performance Measure 4.1: Metrics on visits to the IAF website and utilization of associated
        online information and resources.

        Performance Measure 4.2: External speaking engagements or participation of IAF staff in
        public forums.

        Performance Measure 4.3: Media coverage, press releases and grantee project recognition.

        Performance Measure 4.4: Total committed dollar amount of in-kind and cash resources
        contributed or mobilized by grantees.

        Performance Measure 4.5: Funds secured as a result of private sector, inter-governmental or
        individual donation, investment, or other sponsorship of IAF activities.

Strategic Goal Five: Modernize and strengthen our operations.

Problem/need/challenge addressed: Feedback from the Grantee Perception Report conducted at the end
of 2011 suggests there may be opportunities to streamline our process for approving and monitoring
grants and to reduce the administrative burden on our grantees while maintaining prudent controls and
appropriate accountability. The IAF operates a grants-management system that has served the agency for
many years but does not offer many of the integrative and analytic features available on the market today.
Other IT capabilities also require significant upgrading to make the IAF more cost-effective. Meanwhile,
as a small agency, we must continuously adjust to retirements and transitions of staff and loss of
institutional knowledge.
Contributing IAF programs: Inter-agency agreements, formal training and cross-training of staff, IT
development.
Contributing external U.S. government programs: Bureau of Public Debt (BPD), Department of
Treasury (accounting, procurement and travel services); Internal Business Center (IBC), Department of
the Interior (personnel services); General Services Administration.
Lead persons/positions: The Chief Operating Officer provides overall leadership and operational
support, in close collaboration with the President and the Vice President for Programs.



                                                    19
Strategy and key measures: The IAF will conduct a thorough review of its process for approving,
monitoring and evaluating grants to identify opportunities to improve effectiveness and reduce the
administrative burden on our grantee partners, while maintaining prudent controls and appropriate
accountability. The IAF will also assess its legacy grants- management system in order to determine the
best course of action to increase functionality and user-friendliness, enhancing the facility to generate
more useful analytical reports that can support evidence-based decision-making and operational
transparency. We will continue outsourcing to specialized government agencies many support services,
including procurement, accounting, travel, human resources, payroll, and equal employment opportunity.
We will review these contracts in detail for more efficient and effective ways of conducting operations to
assure the best value to the agency. Finally, we will revise our system of performance evaluations and
augment our teamwork and backstopping arrangements.

        Performance Measure 5.1: Metrics associated with time elapsed from receipt of proposal to
        definitive decision on funding.

        Performance Measure 5.2: Re-engineered system of grants approval, monitoring and evaluation
        supported by versatile grants- management system in place.

        Performance Measure 5.3: New performance-evaluation system in place.

Performance Measure 5.4: Improved results on Grantee Perception Survey compared with 2011.




                                                    20
                   Analysis of Financial Statements and Stewardship Information

Systems, Controls, and Legal Compliance

Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during FY2013.
Program costs of $28,051,390 reflected a decrease of $26,674 in FY2013 from the FY2012 amount of
$28,078,064.

Payroll and benefits in FY2013 decreased to $5,307,363 from $5,458,506 in FY2012, and program-
related activities (not including grants/grant audits) in FY2013 decreased to $4,254,316 from $4,606,295
in FY2012.



                           FY13 NET COST OF CORE FUNCTIONS


                  Payroll and
                   Benefits           Rental Payments         Operating
                     20%                    3%                Services
                                                                10%




         Other Program
           Activities
             16%
                                                          Grants/Grant
                                                            Audits
                                                             51%



Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for FY2013 and FY 2012
were $35,024,170 and $34,748,673 respectively.

Limitations on Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have
been prepared from the books and records of the entity in accordance with GAAP for Federal entities and
the formats prescribed by OMB, the statements are in addition to the financial reports used to monitor and
control budgetary resources, which are prepared from the same books and records. The statements should
be read with the realization that they are a component of the U.S. Government, a sovereign entity.




                                                   21
                 Inter-American Foundation
                 An Independent Agency of the U.S. Government




                                                                                 December 6, 2013

Letter from the Chief Financial Officer

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency, efficient in
its operations, innovative and effective in its grassroots development programs. The IAF learns
from its experience, and uses the lessons learned to improve its own grant making decisions and
to advance the knowledge and success of development practitioners, donors, and policy makers.

The IAF has significantly streamlined operations, and most administrative and technical
functions continued to be outsourced in 2013 through longstanding inter-agency agreements with
the Bureau of the Fiscal Service (BFS) of the U.S. Department of the Treasury and the Interior
Business Center (IBC) of the Department of the Interior. Outsourcing has streamlined operations,
lowered overhead and brought a depth of expertise to these functions that the IAF could not
otherwise afford. BFS continued to provide services related to procurement, accounting, budget,
and travel); IBC continued to provide payroll and human resource services, including
timekeeping, processing and reporting personnel actions, and continued to manage online
applications such as the Federal Personnel and Payroll System (FPPS) and Employee Express.
Since FY 2009, the IAF has participated with IBC in E-Gov initiatives to improve personnel
operations, and since FY 2010, employees have accessed their files through the eOPF project
that converted all records in (OPF) to electronic format.

 The IAF is supporting the Financial Management Line of Business (FMLOB) Initiative by
 using BFS’s Oracle Federal Financials System and related accounting and procurement
 services and BFS has been reporting FMLOB metrics for IAF for the past four years. The
 Oracle platform provides real-time, user-friendly financial reports. The IAF audit reports
 continue to confirm the accuracy of our financial statements in accordance with accounting
 principles generally accepted in the United States.

 The IAF, in conjunction with BFS, analyzed and evaluated its systems of management control
 and financial management under the Federal Managers’ Financial Integrity Act (FMFIA) for
 the year ended September 30, 2013, according to the procedures and standards prescribed by
 the Office of Management and Budget (OMB) and the Government Accountability Office.
 Based on this evaluation we found that our systems of management controls provide
 reasonable assurance that: programs are free from waste, fraud and mismanagement; laws and
 regulations are followed; our continuity of operations planning in critical areas is sufficient to
 reduce risk to reasonable levels; and our performance information is reliable as defined in
 OMB Circular A-11, Section 232.10. We further found that the IAF’s financial management
 systems, in conjunction with those of BPD, meet the Federal government’s management
 system objectives of usefulness, timeliness, reliability and completeness, comparability and

                                                        22
 consistency, and efficiency and economy. As result, we conclude that there is reasonable
 assurance that the Inter-American Foundation complies with Sections 2 and 4 of the FMFIA.

 We have no open or new material weakness or nonconformance to report; we have not
 discovered any material weakness or nonconformance during fiscal year 2013; and we do not
 have any open reportable conditions or second tier issues. For the year ended September 30,
 2013, the Inter-American Foundation’s administrative and fiscal accounting systems
 substantially comply with the requirements of the Federal Financial Management Improvement
 Act (FFMIA).

 The financial statements and performance results data are complete, reliable and in accordance
 with OMB requirements and in conformity with generally accepted accounting principles. The
 IAF has appropriate management controls in place to ensure that all internal controls are
 operating in accordance with applicable policies and procedures and are effective in meeting
 the requirements imposed by the FMFIA and FFMIA.




Signed:

/s/

Lesley Duncan
Chief Operating Officer




                                               23
                                INDEPENDENT AUDITOR'S REPORT


Inter-American Foundation
Washington, D.C.


Report on the Financial Statements

We have audited the accompanying balance sheets of the Inter-American Foundation (IAF) as of
September 30, 2013 and 2012, and the related statements of net cost, changes in net position, and
budgetary resources, for the years then ended (collectively referred to as the financial statements), and the
related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with accounting principles generally accepted in the United States of America; this includes
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of financial statements that are free from material misstatement, whether due to fraud or
error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these financial statements based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and the Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, as amended. Those
standards and OMB Bulletin No. 14-02, require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free from material misstatements.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the financial statements. The procedures selected depend on the auditor’s judgment, including the
assessment of the risks of material misstatement of the financial statements, whether due to fraud or error.
In making those risk assessments, the auditor considers internal control relevant to the entity’s preparation
and fair presentation of the financial statements in order to design audit procedures that are appropriate in
the circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.



                                                     24

                           1101 MERCANTILE LANE, SUITE 122 ● LARGO, MD 20774
          PHONE: (240) 770-4900 ● FAX: (301) 773-2090 ● mail@brownco-cpas.com ● www.brownco-cpas.com
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of IAF as of September 30, 2013 and 2012, and its net costs, changes in net position,
and budgetary resources for the years then ended, in accordance with accounting principles generally
accepted in the United States of America.

Other Matters

Accounting principles generally accepted in the United States of America require that the information in
the Management’s Discussion and Analysis (MD&A) and Required Supplementary Information (RSI)
sections be presented to supplement the basic financial statements. Such information, although not a part
of the basic financial statements, is required by the Federal Accounting Standards Advisory Board, who
considers it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to
the required supplementary information in accordance with auditing standards generally accepted in the
United States of America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management's responses to our inquiries,
the basic financial statements, and other knowledge we obtained during our audit of the basic financial
statements. We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.


Report on Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements, we considered IAF’s internal control
over financial reporting (internal control) to design audit procedures that are appropriate in the
circumstances for the purpose of expressing an opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of IAF’s internal control. Accordingly, we do not
express an opinion on the effectiveness of IAF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement
of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We identified a significant deficiency in internal control over financial reporting, where IAF
did not properly record advance funding as other liabilities for the interim period ended June 30, 2013.
The significant deficiency is described in Section 1.

Our consideration of the internal control was for the limited purpose described in the first paragraph of
this section and was not designed to identify all deficiencies in internal control over financial reporting
that might be deficiencies, significant deficiencies or material weaknesses. In our fiscal year 2013 audit,
we did not identify any deficiencies in internal control that we consider to be a material weakness.
However, material weaknesses may exist that have not been identified.



                                                     25
Report on Compliance and Other Matters

As part of obtaining reasonable assurance about whether IAF’s financial statements are free from material
misstatement, we performed tests of its compliance with applicable provisions of laws, regulations,
contracts and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 14-02.

Management’s Responsibility for Internal Control and Compliance

IAF’s management is responsible for (1) evaluating effectiveness of internal control over financial
reporting based on criteria established under the Federal Managers Financial Integrity Act (FMFIA), (2)
providing a statement of assurance on the overall effectiveness of internal control over financial reporting,
and (3) ensuring compliance with other applicable laws and regulations.

Auditor’s Responsibilities

We are responsible for: (1) obtaining a sufficient understanding of internal controls over financial
reporting to plan the audit, (2) testing compliance with certain provisions of laws and regulations that
have a direct and material effect on the financial statements and applicable laws for which OMB Bulletin
14-02 requires testing, and (3) applying certain limited procedures with respect to the MD&A and other
RSI.

We did not evaluate all internal controls relevant to operating objectives as broadly established by the
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient operations.
We limited our internal control testing to testing controls over financial reporting. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or noncompliance may
nevertheless occur and not be detected. We also caution that projecting our audit results to future periods
is subject to risk that controls may become inadequate because of changes in conditions or that the degree
of compliance with controls may deteriorate. In addition, we caution that our internal control testing may
not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to IAF. We limited our tests of
compliance to certain provisions of laws and regulations that have a direct and material effect on the
financial statements and those required by OMB Bulletin 14-02 that we deemed applicable to IAF’s
financial statements for the fiscal year ended September 30, 2013. We caution that noncompliance with
laws and regulations may occur and not be detected by these tests and that such testing may not be
sufficient for other purposes.




                                                     26
Purpose of the Report on Internal Control over Financial Reporting and the Report on Compliance
and Other Matters

The purpose of the Report on Internal Control over Financial Reporting and the Report on Compliance
and Other Matters sections of this report is solely to describe the scope of our testing of internal control
and compliance and the result of that testing, and not to provide an opinion on the effectiveness of IAF’s
internal control or on compliance. These reports are an integral part of an audit performed in accordance
with Government Auditing Standards in considering IAF’s internal control and compliance. Accordingly,
these reports are not suitable for any other purpose.


This report is intended solely for the information and use of the management of IAF, OMB, USAID OIG
and Congress, and is not intended to be and should not be used by anyone other than these specified
parties.



Largo, Maryland
December 6, 2013




                                                    27
Section 1 Significant Deficiency

1. General Ledger Account Balances Incorrect at Interim Reporting Period

Condition:

IAF has two agreements, with another Federal agency, to provide services. IAF received funding in
advance of providing the services. We noted the following related to the two agreements:

          Advance funding of $672,450.48 was incorrectly recorded as accounts receivable and revenue.
          This should have been recorded as other liability. In FY 2012, the transaction was recorded
          properly as other liability, but was changed from other liability to accounts receivable during FY
          2013.

          Advance funding of $300,000 was incorrectly recorded as revenue. This should have been
          recorded as other liability. To correct this error , the transaction was reversed twice, which
          created another incorrect account balance.

Criteria:

Statement of Federal Financial Accounting Standards (SFFAS) 1, Accounting for Selected Assets and
Liabilities, states that Federal entities may receive advances and prepayments from other entities for
goods to be delivered or services to be performed. Before revenues are earned, the portion of the advances
and prepayments should be recorded as other liabilities. After the revenue is earned (goods or services are
delivered, or performance progress is made according to engineering evaluations), the entity should
record the appropriate amount as a revenue or financing source and should reduce the liability
accordingly.

Cause:

Transactions were incorrectly entered into the accounting system.

Effect:

At the interim reporting period (6/30/2013), accounts receivable was overstated by $372,450.48; other
liabilities were overstated by $672,450.48 and revenue was understated by $300,000. Adjustments were
recorded in August 2013, to correct the incorrect balances.

Recommendation:

We recommend that IAF review its general ledger detail on a monthly basis and ensure that all accounting
transactions are recorded properly. Any incorrect transactions should be corrected on a timely basis.




                                                     28
Management’s Response:

Management disagrees with the finding and the classification of the finding as a significant deficiency.
In summary, management’s responded that “In the process of upgrading the Oracle system, some of the
transactions were entered into the system in an incorrect order, which caused certain statements of
account balances to be inaccurate. Since the problem was not fixed, journal entries were not entered in
Oracle, but instead topside adjustments were made for the FACTS II and Financial Statement submission
as of June 30, 2013.”

Management also provided the following comments: “Brown & Company auditors met with Department
of the Treasury, Bureau of the Public Debt, Bureau of Fiscal Services (BFS) officials in July, 2013. At
that meeting, BFS explained the situation, including that the matter was not yet fully resolved. As a result
of that conversation, BFS agreed to take the additional step of going back to June 30, 2013 and inputting
the journal entries into the system. As predicted, the problem was definitively solved by correcting the
source documents in the Oracle system, which occurred in August, 2013. Thereafter, the journal entries
that had been made as a result of the meeting with the auditors in July were reversed.

Respectfully, these facts do not constitute a Significant Deficiency in the manner in which IAF or BPD
maintains or oversees its accounting system.”

Management’s full response is presented in Section II – Management’s Response.

Auditor’s Evaluation of Management’s Response:

Management’s explanation of the facts and circumstances of why the interim financial statement Other
Liability account balance was incorrect, and the agency’s efforts to correct the misstatement, is accepted.
However, it does not address the required internal control procedures for reviewing and correcting errors
in the financial statement in a timely manner. Therefore, we continue to recommend that IAF review its
general ledger detail on a monthly basis and ensure that all accounting transactions are recorded properly.
Any incorrect transactions should be corrected on a timely basis.

We do not agree with management’s response that the finding is not a significant deficiency, because the
other liabilities account balance was misstated by an amount of $972,450.48 (absolute total of
$672,450.48 plus $300,000), which is above the 3% materiality threshold for material misstatements in
the financial statements. Therefore, we continue to classify the finding as a significant deficiency for
internal control over financial reporting.

Section 2 Management’s Response

Below is the full management’s response to the audit finding and recommendation:

As noted correctly, the IAF has a long standing inter-agency agreement with the Department of the
Treasury, Bureau of the Public Debt, Bureau of Fiscal Services (BFS), under which BFS is responsible
for managing IAF’s General Ledger. IAF and BFS have shared responsibility for reviewing the General
Ledger for accuracy.

During the time period covered by this Audit, BFS upgraded its Oracle system to better track and account
for its interagency agreements. In the process of doing so, BFS entered some of the transactions into the
upgraded system in an incorrect order, which caused certain statements of account balances to be
inaccurate. BFS detected the error and entered what it believed were correcting entries, but those did not


                                                    29
correct all balances that had been affected (and may have led to other misstatements being
generated). BFS detected that its attempted fix had not solved the issue. After additional research, BFS
contacted Oracle to request its assistance in resolving the issue. In anticipation of the correction, BFS did
not enter journal entries in Oracle, but instead made topside adjustments for the FACTS II and Financial
Statement submission as of June 30.

Brown & Co. auditors met with BFS officials in July, 2013. At that meeting, BFS explained the situation,
including that the matter was not yet fully resolved. As a result of that conversation, BFS agreed to take
the additional step of going back to June 30, 2013 and inputting the journal entries into the system. As
predicted, the problem was definitively solved by correcting the source documents in the Oracle system,
which occurred in August, 2013. Thereafter, the journal entries that had been made as a result of the
meeting with the auditors in July were reversed.

While IAF certainly agrees with the Audit’s recommendation that the General Ledger maintained by BFS
should be reviewed by BFS and IAF on a timely basis, the facts here demonstrate that BFS encountered a
computer-based glitch that produced erroneous data, that BFS detected the error in a timely basis, that it
worked persistently until it was corrected, that it made topside adjustments to the FACTS II and Financial
Statement submission of June 30, 2013, to ensure that IAF’s financial statements were accurately reported
to all external audiences at all times, and that it worked with the auditors to take additional steps so that
journal entries were included in the June 30, 2013 statements.

Respectfully, these facts do not constitute a Significant Deficiency in the manner in which IAF or BPD
maintains or oversees its accounting system.



                               Paul M. Zimmerman
                               General Counsel

                                Inter-American Foundation
                               1331 Pennsylvania Avenue, NW
                               Suite 1200 North
                               Washington, DC 20004
                               (202) 683-7118




                                                     30
                                            INTER-AMERICAN FOUNDATION
                                                   BALANCE SHEET
                                          AS OF SEPTEMBER 30, 2013 AND 2012
                                                     (In Dollars)

                                                                                      2013              2012
Assets:
  Intragovernmental
    Fund Balance With Treasury (Note 2)                                           $   35,024,170    $   34,748,673
    Other (Note 3)                                                                        39,382            45,568
  Total Intragovernmental                                                         $   35,063,552    $   34,794,241
  Other (Note 3)                                                                       1,737,137         2,280,568
Total Assets                                                                      $   36,800,689    $   37,074,809

Liabilities:
  Intragovernmental
    Accounts Payable                                                              $       80,539    $     178,919
    Other (Note 6)                                                                     1,033,038          734,984
  Total Intragovernmental                                                         $    1,113,577    $     913,903

  Accounts Payable                                                                       156,969           360,374
  Other (Note 6)                                                                         568,184           655,395
Total Liabilities                                                                 $    1,838,730    $    1,929,672

Net Position:
  Unexpended Appropriations - Other Funds                                         $   20,689,748        21,485,654
  Cumulative Results of Operations - Funds from Dedicated Collections (Note 14)       14,592,460        14,036,102
  Cumulative Results of Operations - Other Funds                                        (320,248)         (376,619)
  Total Net Position                                                              $   34,961,959    $   35,145,137
Total Liabilities and Net Position                                                $   36,800,689    $   37,074,809




              The accompanying notes are an integral part of these financial statements.
                                                31
                                    INTER-AMERICAN FOUNDATION
                                       STATEMENT OF NET COST
                       FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                             (In Dollars)

                                                                       2013               2012
Program Costs:
  Foreign Grant Program (Note 9):
    Gross Costs                                                   $     28,053,510    $   28,155,799
    Less: Earned Revenue                                                    (2,120)          (77,735)
Net Cost of Operations                                            $     28,051,390    $   28,078,064




             The accompanying notes are an integral part of these financial statements.
                                               32
                                                                       INTER-AMERICAN FOUNDATION
                                                                  STATEMENT OF CHANGES IN NET POSITION
                                                          FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                                                                (In Dollars)

                                                                     2013                2013                  2013                  2012                2012                  2012
                                                                  Funds from                                                      Funds from
                                                                   Dedicated                                Consolidated           Dedicated                                Consolidated
                                                                  Collections       All Other Funds            Total              Collections       All Other Funds            Total

Cumulative Results of Operations:
Beginning Balances                                            $      14,036,102     $       (376,619)   $       13,659,483    $      14,616,774     $       (405,050)   $       14,211,724

Budgetary Financing Sources:
 Appropriations Used                                          $               -     $     21,814,825    $       21,814,825    $               -     $     23,020,799    $       23,020,799
 Nonexchange Revenue                                                  6,031,271                    -             6,031,271            4,207,978                                  4,207,978
 Donations and Forfeitures of Cash and Cash Equivalents                 150,000                    -               150,000                  300                    -                   300

Other Financing Sources (Non-Exchange):
  Imputed Financing Sources (Note 10)                                         -              668,023               668,023                    -              296,746               296,746
Total Financing Sources                                       $       6,181,271     $     22,482,848    $       28,664,119    $       4,208,278     $     23,317,545    $       27,525,823
Net Cost of Operations                                               (5,624,913)         (22,426,477)          (28,051,390)          (4,788,950)         (23,289,114)          (28,078,064)
Net Change                                                    $         556,358     $         56,371    $          612,729    $        (580,672)    $         28,431    $         (552,241)
Cumulative Results of Operations                              $      14,592,460     $       (320,248)   $       14,272,212    $      14,036,102     $       (376,619)   $       13,659,483

Unexpended Appropriations:
Beginning Balances                                            $                 -   $     21,485,653    $       21,485,653    $                 -   $     22,258,454    $       22,258,454

Budgetary Financing Sources:
  Appropriations Received                                     $               -     $     22,500,000    $       22,500,000    $               -     $     22,500,000    $       22,500,000
  Other Adjustments                                                           -           (1,481,081)           (1,481,081)                   -             (252,001)             (252,001)
  Appropriations Used                                                         -          (21,814,825)          (21,814,825)                   -          (23,020,799)          (23,020,799)
Total Budgetary Financing Sources                             $               -     $       (795,906)   $         (795,906)   $               -     $       (772,800)   $         (772,800)
Total Unexpended Appropriations                               $               -     $     20,689,748    $       20,689,748    $               -     $     21,485,654    $       21,485,654
Net Position                                                  $      14,592,460     $     20,369,499    $       34,961,959    $      14,036,102     $     21,109,035    $       35,145,137




                     The accompanying notes are an integral part of these financial statements.
                                                       33
                                       INTER-AMERICAN FOUNDATION
                                   STATEMENT OF BUDGETARY RESOURCES
                          FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                                (In Dollars)

                                                                          2013               2012
Budgetary Resources:

Unobligated Balance Brought Forward, October 1                       $      5,380,781    $    8,783,013
Recoveries of Prior Year Unpaid Obligations                                 2,501,289         1,257,251
Other changes in unobligated balance                                         (341,996)         (252,001)
Unobligated balance from prior year budget authority, net                   7,540,074         9,788,263
Appropriations                                                             21,360,915        22,500,000
Spending authority from offsetting collections                              6,481,271         4,208,279
Total Budgetary Resources                                            $     35,382,260    $   36,496,542

Status of Budgetary Resources:
Obligations Incurred (Note 15)                                       $     26,396,607    $   31,115,761
Unobligated balance, end of year:
     Apportioned                                                            6,805,965           175,586
     Unapportioned                                                          2,179,688         5,205,195
Total unobligated balance, end of year                                      8,985,653         5,380,781
Total Budgetary Resources                                            $     35,382,260    $   36,496,542

Change in Obligated Balance
  Unpaid Obligations:
Unpaid Obligations, Brought Forward, October 1                       $     29,367,892    $    28,475,500
Obligations Incurred                                                       26,396,607         31,115,761
Outlays (gross)                                                           (27,224,693)       (28,966,118)
Recoveries of Prior Year Unpaid Obligations                                (2,501,289)        (1,257,251)
Unpaid Obligations, End of Year (Gross)                                    26,038,517         29,367,892
Obligated Balance, End of Year                                       $     26,038,517    $    29,367,892

Budget Authority and Outlays, Net:
Budget authority, gross                                              $     27,842,186    $   26,708,279
Actual offsetting collections                                              (6,481,271)       (4,208,279)
Budget Authority, net                                                $     21,360,915    $   22,500,000

Outlays, gross                                                       $     27,224,693    $   28,966,117
Actual offsetting collections                                              (6,481,271)       (4,208,279)
Outlays, net                                                         $     20,743,422    $   24,757,839
Agency outlays, net                                                  $     20,743,422    $   24,757,839




              The accompanying notes are an integral part of these financial statements.
                                                34
                   INTER-AMERICAN FOUNDATION
                NOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT                         The Statement of Net Cost presents the
ACCOUNTING POLICIES                                    agency’s operating results; the Statement of
                                                       Changes in Net Position displays the changes
A. Reporting Entity                                    in the agency’s equity accounts. The
                                                       Statement of Budgetary Resources presents the
                                                       sources, status, and uses of the agency’s
The Inter-American Foundation (IAF), a U.S.
                                                       resources and follows the rules for the Budget
government corporation, was established
                                                       of the United States Government. The
pursuant to part IV of the Foreign Assistance
                                                       statements are a requirement of the Chief
Act of 1969 (22 U.S.C. 290f (a)). The IAF
                                                       Financial Officers Act of 1990, the
provides grants to support the initiatives of
                                                       Government Management Reform Act of 1994
non-governmental     and    community-based
                                                       and the Accountability of Tax Dollars Act of
organizations in Latin America and the
                                                       2002. They have been prepared from, and are
Caribbean to implement their economic
                                                       fully supported by, the books and records of
development and poverty reduction projects.
                                                       the IAF in accordance with the hierarchy of
                                                       accounting principles generally accepted in the
The management of the IAF is vested in a
                                                       United States of America, standards issued by
nine-person Board of Directors appointed by
                                                       the Federal Accounting Standards Advisory
the President of the United States. Six Board
                                                       Board (FASAB), Office of Management and
members are drawn from the private sector and
                                                       Budget (OMB) Circular A-136, Financial
three from officers or employees of agencies of
                                                       Reporting Requirements, as amended, and the
the U.S. Government concerned with Inter-
                                                       IAF accounting policies which are summarized
American activities. The Board appoints the
                                                       in this note. These statements, with the
IAF’s president who acts as the chief executive
                                                       exception of the Statement of Budgetary
officer.
                                                       Resources, are different from financial
                                                       management reports, which are also prepared
Congress enacts appropriations to permit the
                                                       pursuant to OMB directives that are used to
IAF to incur obligations for authorized
                                                       monitor and control the IAF's use of budgetary
purposes. In fiscal years 2013 and 2012, the
                                                       resources. The financial statements and
IAF was accountable for the Social Progress
                                                       associated notes are presented on a
Trust Fund (SPTF), Gift Fund, and General
                                                       comparative basis. Unless specified otherwise,
Fund appropriations. The IAF recognizes
                                                       all amounts are presented in dollars.
budgetary resources as assets when cash (funds
held by the U.S. Treasury) is made available
through the Department of Treasury General             C. Basis of Accounting
Fund warrants and transfers from the Inter-
American Development Bank (IDB).
                                                       Transactions are recorded on both an accrual
                                                       accounting basis and a budgetary basis. Under
B. Basis of Presentation
                                                       the accrual method, revenues are recognized
                                                       when earned, and expenses are recognized
The financial statements have been prepared to
                                                       when a liability is incurred, without regard to
report the financial position and results of
                                                       receipt or payment of cash. Budgetary
operations of the IAF. The Balance Sheet
                                                       accounting facilitates compliance with legal
presents the financial position of the agency.
                                                       requirements on the use of federal fund




                                                  35
                                                        request by the IAF, subject to denomination
D. Revenues & Other Financing Sources                   availability and exchange controls. In 2002,
                                                        the SPTF agreement was amended to make
The IAF’s grant program is funded by                    available all remaining funds until exhausted.
appropriation from the budget of the United             The IAF recognizes as an imputed financing
States, agreement with the Inter-American               source the amount of accrued pension and
Development Bank (IDB) covering the SPTF,               post-retirement benefit expenses for current
and donations from the private sector. No-year          employees paid on its behalf by the Office of
appropriations     remain    available     until        Personnel Management (OPM).
expended, while multi-year appropriations are
available for the period prescribed by the              E. Fund Balance with Treasury
applicable statute. Appropriations are used,
within statutory limits, for programmatic,              Fund Balance with Treasury is the aggregate
operating and capital expenditures for essential        amount of the IAF’s appropriated funds and
personal property.        Appropriations are            SPTF collections that are available to pay
recognized as a financing source when                   agency liabilities and finance authorized
expended.      Appropriations expended for              purchases, commitments and SPTF grants.
capitalized property and equipment are                  The IAF does not maintain bank accounts of
recognized as expense when an asset is                  its own, has no disbursing authority, and does
consumed in operations.                                 not maintain cash held outside of Treasury.
                                                        Foreign currency payments are made either by
The IAF has an agreement with the IDB to                Treasury or the Department of State and are
receive funds from the SPTF to finance part of          reported by the IAF in the U.S. dollar
the IAF’s grant program. The IDB is an                  equivalents.
international financial organization established
to promote the economic and social
development of member countries. The United             F. Accounts Receivable
States’ participation in IDB is authorized and
                                                        Accounts receivable consists of amounts owed
governed by the Inter-American Development
Bank Act (22 U.S.C. 283). Within IDB, the               to the IAF by other Federal agencies and the
                                                        general public. Amounts due from Federal
United States established the SPTF in 1961
                                                        agencies are considered fully collectible.
and provided appropriations to SPTF through
1964. IDB was designated as the administrator           Accounts receivable from the public include
for the SPTF and committed the original SPTF            reimbursements from employees. An
appropriations to loans. Repayments of these            allowance for uncollectible accounts
                                                        receivable from the public is established when,
loans are recycled by the IDB in accordance
with the original agreement and subsequent              based upon a review of outstanding accounts
provision for additional loans, technical               and the failure of all collection efforts,
                                                        management determines that collection is
cooperation programs, and financing of the
Inter-American Foundation program. Congress             unlikely to occur considering the debtor’s
enacts annual, multi-year, and no-year                  ability to pay.
appropriations to be used, within statutory
limits, for operating, capital and grant
                                                        G. Property, Equipment, and Software
expenditures. Additional amounts are obtained
from service fees and reimbursements from
other government entities and the public.
                                                        Property, equipment and software represent
                                                        furniture, fixtures, equipment, and information
Pursuant to a 1973 amendment to the Foreign             technology hardware and software which are
Assistance Act of 1961, IDB provides funds to           recorded at original acquisition cost and are
finance social development projects. These              depreciated or amortized using the straight-line
funds are made available in U.S. dollars upon           method over their estimated useful lives.
                                                   36
Major alterations and renovations are                   categories may include liabilities that are
capitalized, while maintenance and repair costs         covered by budgetary resources and liabilities
are expensed as incurred. The IAF's                     not covered by budgetary resources.
capitalization threshold is $50,000 for
individual purchases and $500,000 for bulk              Liabilities covered by budgetary resources are
purchases. Property, equipment, and software            liabilities funded by a current appropriation or
acquisitions that do not meet the capitalization        other funding source. These consist of
criteria are expensed upon receipt. Applicable          accounts payable and accrued payroll and
standard governmental guidelines regulate the           benefits. Accounts payable represent amounts
disposal and convertibility of agency property,         owed to another entity for goods ordered and
equipment, and software. The useful life                received and for services rendered except for
classifications for capitalized assets are as           employees. Accrued payroll and benefits
follows:                                                represent payroll costs earned by employees
                                                        during the fiscal year which are not paid until
                                                        the next fiscal year.
Description                 Useful Life (years)
                                                        Liabilities not covered by budgetary resources
Office Furniture                     10
                                                        are liabilities that are not funded by any
ADP Equipment                         3                 current appropriation or other funding source.
Office Equipment                     10                 These liabilities consist of accrued annual
IT Software                           3                 leave.

H. Advances and Prepaid Charges                         J. Accounts Payable

Advance payments are generally prohibited by            Accounts payable consists primarily of
law. There are some exceptions, such as                 amounts owed to other Federal agencies and
reimbursable agreements, subscriptions and              the public for contracts for goods or services,
payments to contractors and employees.                  such as leases, utilities, telecommunications
Payments made in advance of the receipt of              and consulting and support services.
goods and services are recorded as advances or
prepaid charges at the time of prepayment and
recognized as expenses when the related goods           K. Annual, Sick, and Other Leave
and services are received.
                                                        Annual leave is accrued as it is earned, and the
I. Liabilities                                          accrual is reduced as leave is taken. The
                                                        balance in the accrued leave account is
                                                        adjusted to reflect current pay rates. Liabilities
Liabilities represent the amount of funds               associated with other types of vested leave,
likely      to    be      paid     by       the         including compensatory, restored leave, and
IAF as a result of transactions or events that          sick leave in certain circumstances, are accrued
have already occurred. The IAF reports its              at year-end, based on latest pay rates and
liabilities    under      two      categories,          unused hours of leave. Funding will be
Intragovernmental and With the Public.                  obtained from future financing sources to the
Intragovernmental liabilities represent funds           extent that current or prior year appropriations
owed to another government agency.                      are not available to fund annual and other
Liabilities With the Public represents funds            types of vested leave earned but not taken.
owed to any entity or person that is not a              Nonvested leave is expensed when used. Any
federal agency, including private sector firms          liability for sick leave that is accrued but not
and federal employees.        Each of these             taken by a Civil Service Retirement System


                                                   37
(CSRS)-covered employee is transferred to               communicate these factors to the IAF for
OPM upon the retirement of that individual.             current period expense reporting. OPM also
Credit is given for sick leave balances in the          provides information regarding the full cost of
computation of annuities upon the retirement            health and life insurance benefits. The IAF
of Federal Employees Retirement System                  recognized the offsetting revenue as imputed
(FERS)-covered employees effective at 50%               financing sources to the extent these expenses
beginning FY2010 and 100% in 2014.                      will be paid by OPM.
L. Retirement Plans
                                                        The IAF does not report on its financial
The IAF employees participate in either the             statements information pertaining to the
CSRS or the FERS. The employees who                     retirement plans covering its employees.
participate in CSRS are beneficiaries of the            Reporting amounts such as plan assets,
IAF matching contribution, equal to seven               accumulated plan benefits, and related
percent of pay, distributed to their annuity            unfunded liabilities, if any, is the responsibility
account in the Civil Service Retirement and             of the OPM, as the administrator.
Disability Fund.

                                                        M. Grant Disbursements and
Prior to December 31, 1983, all employees
                                                        Administrative Expenses
were covered under the CSRS program. From
January 1, 1984 through December 31, 1986,
employees had the option of remaining under             Grant disbursements include payments in
CSRS or joining FERS and Social Security.               advance of performance under contractual
Employees hired as of January 1, 1987 are               obligations.    Evidence of performance is
automatically covered by the FERS program.              determined by review of periodic expenditure
Both CSRS and FERS employees may                        reports. All of the IAF expenditures for grants
participate in the federal Thrift Savings Plan          over $35,000 are independently verified using
(TSP). FERS employees receive an automatic              the IAF’s audit guidelines.        The IAF’s
agency contribution equal to one percent of             administrative expenses are funded solely by
pay and the IAF matches any employee                    appropriated funds.
contribution up to an additional four percent of
pay. For FERS participants, The IAF also                For three years prior to FY10, the IAF did not
contributes the employer’s matching share of            estimate grant advances. In FY09, the IAF
Social Security.                                        began estimating grant advances by
                                                        multiplying the grants disbursed during the
                                                        quarter by 50%. This estimate will be done
FERS employees and certain CSRS
                                                        each quarter to determine the amount of grant
reinstatement employees are eligible to
                                                        disbursements to be accounted for as grant
participate in the Social Security program after
                                                        advances in the Balance Sheet.
retirement. In these instances, the IAF remits
the employer’s share of the required
                                                        N. Use of Estimates
contribution.
                                                        The preparation of the accompanying financial
                                                        statements in accordance with generally
The IAF recognizes the imputed cost of
                                                        accepted accounting principles requires
pension and other retirement benefits during
                                                        management to make certain estimates and
the employees’ active years of service. OPM
                                                        assumptions that affect the reported amounts
actuaries determine pension cost factors by
                                                        of assets, liabilities, revenues, and expenses.
calculating the value of pension benefits
                                                        Actual results could differ from those
expected to be paid in the future and
                                                        estimates.


                                                   38
                                                        sources in fiscal years 2013 and 2012 to the
O. Imputed Costs/Financing Sources                      extent directed by accounting standards.

Federal Government entities often receive
goods and services from other Federal                   P. Reclassification
Government entities without reimbursing the
providing entity for all the related costs. In
addition, Federal Government entities also              Certain fiscal year 2012 balances have been
incur costs that are paid in total or in part by        reclassified, retitled, or combined with other
other entities. An imputed financing source is          financial statement line items for consistency
recognized by the receiving entity for costs            with the current year presentation.
that are paid by other entities. The IAF
recognized imputed costs and financing




                                                   39
NOTE 2. FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2013 and 2012 were as follows:


                                                              2013                     2012
Fund Balances:
Trust Funds                                              $      108,267           $        1,355
Social Progress Trust Funds (SPTF)                           14,034,747               13,309,393
Appropriated Funds                                           20,881,156               21,437,925
Total                                                    $   35,024,170           $   34,748,673
Status of Fund Balance with Treasury:
Unobligated Balance
   Available                                             $    6,805,965           $      175,586
   Unavailable                                                2,179,688                5,205,195
Obligated Balance Not Yet Disbursed                          26,038,517               29,367,892
Total                                                    $   35,024,170           $   34,748,673


No discrepancies exist between the Fund Balance reflected on the Balance Sheet and the balances in the
Treasury accounts.


The available unobligated fund balances represent the current-period amount available for obligation or
commitment. At the start of the next fiscal year, this amount will become part of the unavailable balance
as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the period of
availability for obligation has expired. These balances are available for upward adjustments of
obligations incurred only during the period for which the appropriation was available for obligation or for
paying claims attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and undelivered
orders that have reduced unexpended appropriations but have not yet decreased the fund balance on hand.
(See also Note 8.)




                                                    40
NOTE 3. OTHER ASSETS


Other assets account balances as of September 30, 2013 and 2012, were as follows:

                                                        2013                     2012
 Intragovernmental
    Advances and Prepayments                   $               39,382     $             45,568
 Total Intragovernmental OtherAssets           $               39,382     $             45,568
 With the Public
   Grant Advances                              $         1,737,137        $         2,280,568
 Total Public Other Assets                     $         1,737,137        $         2,280,568



NOTE 4. PROPERTY, EQUIPMENT, AND SOFTWARE

Schedule of Property, Equipment, and Software as of September 30, 2013

                                                         Accumulated
                                 Acquisition            Amortization/D
Major Class                         Cost                  epreciation         Net Book Value
Furniture & Equipment           $      14,965            $      14,965         $           -
Total                           $      14,965            $      14,965         $           -


Schedule of Property, Equipment, and Software as of September 30, 2012

                                                         Accumulated
                                 Acquisition            Amortization/D
Major Class                         Cost                  epreciation         Net Book Value
Furniture & Equipment           $      14,965            $      14,965         $           -
Total                           $      14,965            $      14,965         $           -




                                                   41
NOTE 5. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities for the IAF as of September 30, 2013 and 2012 include liabilities not covered by budgetary
resources. Congressional action is needed before budgetary resources can be provided. Although future
appropriations to fund these liabilities are likely and anticipated, it is not certain that appropriations will
be enacted to fund these liabilities.


                                                                     2013                   2012
Unfunded Leave - Total Liablities Not Covered by
Budgetary Resources                                            $       322,367        $       376,619
Total Liabilities Covered by Budgetary Resources                     1,516,363              1,553,053
Total Liabilities                                              $     1,838,730        $     1,929,672


Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The balance in
the accrued annual leave account is reviewed quarterly and adjusted as needed to accurately reflect the
liability at current pay rates and leave balances. Accrued annual leave is paid from future funding sources
and, accordingly, is reflected as a liability not covered by budgetary resources. Sick and other leave is
expensed as taken.




                                                      42
NOTE 6. OTHER LIABILITIES

Other liabilities account balances as of September 30, 2013 were as follows:


Current Year:
                                                Current            Non Current           Total
Intragovernmental
  Liability for Advances and Prepayments            970,330                      -          970,330
  Payroll Taxes Payable                     $        62,708    $                 -   $       62,708
Total Intragovernmental Other Liabilities   $      1,033,038   $                 -   $     1,033,038
With the Public
  Payroll Taxes Payable                     $        10,213    $                 -   $       10,213
  Accrued Funded Payroll and Leave                  235,604                      -          235,604
  Unfunded Leave                                    322,367                      -          322,367
Total Public Other Liabilities              $       568,184    $                 -   $      568,184


Prior Year:
                                                Current            Non Current           Total
Intragovernmental
  Liability for Advances and Prepayments            672,450                      -          672,450
  Payroll Taxes Payable                     $        62,534    $                 -   $       62,534
Total Intragovernmental Other Liabilities   $       734,984    $                 -   $      734,984
With the Public
  Payroll Taxes Payable                     $        16,718    $                 -   $       16,718
  Accrued Funded Payroll and Leave                  262,058                      -          262,058
  Unfunded Leave                                    376,619                      -          376,619
Total Public Other Liabilities              $       655,395    $                 -   $      655,395




                                                          43
NOTE 7. COMMITMENTS AND CONTINGENCIES

In the course of the agency's grant-making activities, the IAF has unliquidated grant obligations which, in
the absence of violations or cancellations of the grant agreements, will require disbursements.
Unliquidated grant obligations at September 30, 2013 and 2012 total approximately $2,836,619 and
$22,892,066 respectively.


NOTE 8. UNDELIVERED ORDERS AT THE END OF THE PERIOD

For the year ended September 30, 2013 and 2012, undelivered orders amounted to $27,269,005 and
$30,813,425 respectively.


NOTE 9. INTRA-GOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intra-governmental costs and revenue represent exchange transactions between the IAF and other federal
government entities, and are in contrast to those with non-federal entities (the public). Such costs and
revenue are summarized as follows:


                                                             2013                     2012
Foreign Grant Program
  Intragovernmental Costs                                $  3,481,720           $     3,192,371
  Public Costs                                             24,571,790                24,963,428
   Total Program Costs                                   $ 28,053,510            $   28,155,799
      Intragovernmental Earned Revenue                         (2,120)                  (77,735)
   Total Net Cost                                        $ 28,051,390           $    28,078,064



NOTE 10. IMPUTED FINANCING SOURCES

The IAF recognizes as imputed financing the amount of accrued pension and post-retirement benefit
expenses for current employees. The assets and liabilities associated with such benefits are the
responsibility of the administering agency, OPM. For the year ended September 30, 2013 and 2012,
imputed financing was $668,023 and $296,746 respectively.




                                                    44
NOTE 11. FINANCING SOURCES - SPTF

The Reconciliation of Net Cost of Operations to Budget Note reconciles the financial Net Cost of
Operations with the Statement of Budgetary Resources. The IAF reports SPTF funds obtained from the
IDB as offsetting collections earned. The IAF had no exchange revenue in fiscal year 2013 or 2012. For
fiscal year 2012, the IAF received $4,183,426 from the IDB, which was reported on its SF-133 as funds
received from SPTF collections.

                                                                  2013                2012
SPTF Cumulative Results:
 SPTF Beginning Balance                                     $    14,034,747      $   14,615,719
 SPTF Funds Received                                              6,031,271           4,207,978
 Less: SPTF Funds Expended                                       (5,624,913)         (4,788,950)
SPTF Fund Carry Forward                                     $    14,441,105      $   14,034,747
Donations Cumulative Results:
 Donations Beginning Balance                                          1,355               1,055
 Donations Received                                                 150,000                 300
Donations Carry Forward                                             151,355               1,355
Total SPTF and Donations                                    $    14,592,460      $   14,036,102

 Less: Cumulative Results of Operations – All Other Funds          (320,248)           (376,619)

Total Cumulative Results of Operations                      $    14,272,212      $   13,659,483



NOTE 12. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE UNITED
STATES GOVERNMENT

The President’s Budget that will include fiscal year 2013 actual budgetary execution information has not
yet been published. The President’s Budget is scheduled for publication in February 2014 and can be
found at the OMB Web site: http://www.whitehouse.gov/omb/. The 2014 Budget of the United States
Government, with the "Actual" column completed for 2012, has been reconciled to the Statement of
Budgetary Resources and there were no material differences.




                                                   45
NOTE 13. LEASES

Operating Leases

The IAF occupies office space under a lease agreement that is accounted for as an operating lease. The
previous lease term began on May 1, 2002 and expired on April 30, 2012. Lease payments were
increased annually based on the IAF's proportionate share of the building's operating expenses and real
estate taxes. Operating expenses were increased based on an estimated CPI increase of 3% annually. The
previous agreement allowed the IAF an abatement credit in lieu of a build-out allowance, deducted from
the monthly rent for the first 26 months of the lease. The total operating lease expenses as of September
30, 2013 and 2012 were $619,490 and $377,315, respectively. With the end of the previous lease on
4/30/12, the IAF began a new lease agreement. The new lease term began on May 1, 2012 and expires on
April 30, 2017. The new agreement will allow the IAF an abatement credit in lieu of a build-out
allowance, deducted from the monthly rent for the first 7 months of the lease.


Below is a schedule of future payments for the term of both leases.


Fiscal Year                                                                      Office Space
2014                                                                                    701,601
2015                                                                                    706,501
2016                                                                                    711,547
2017                                                                                    417,002
Total Future Payments                                                           $     2,536,651



The operating lease amount does not include estimated payments for leases with annual renewal options.




                                                   46
NOTE 14. DEDICATED COLLECTIONS

The IAF has dedicated collections that fall into the following categories: Social Progress Trust Fund
(SPTF) and Gift Fund. Both funds are used to finance part of the IAF's grant program and remain
available until funds are exhausted.

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the accrual
method, revenues are recognized when earned and expenses are recognized when liabilities are incurred,
without regard to receipt or payment of cash. Budgetary accounting measures the appropriations and
consumption of budget authority and other budgetary resources and facilitates compliance with legal
constraints and controls over use of Federal funds.

Schedule of Dedicated Collections as of September 30, 2013:


                                                                                           Total Dedicated
                                        Social Progress Trust Fund         Gift Fund         Collections
Balance Sheet
ASSETS
Fund Balance with Treasury             $                 14,034,747    $        1,355      $   14,036,102
Other Assets                                               556,358                     -          556,358
  Total Assets                         $                 14,591,105    $        1,355      $   14,592,460
LIABILITIES AND NET POSITION
Cumulative Results of Operations       $                 14,441,105    $      151,355      $   14,592,460
  Total Liabilities and Net Position   $                 14,441,105    $      151,355      $   14,592,460
Statement of Net Cost
Program Costs                          $                  5,624,913    $               -   $    5,624,913
Less: Earned Revenues                                    (6,181,271)                   -       (6,181,271)
Net Cost of Operations                  $                  (556,358)   $               -   $     (556,358)
Statement of Changes in Net Position
Net Position Beginning of Period       $                 14,034,747    $        1,355      $   14,036,102
Net Cost of Operations                                     (556,358)                   -         (556,358)
Net Position End of Period             $                 14,591,105    $        1,355      $   14,592,460




                                                    47
Schedule of Dedicated Collections as of September 30, 2012:


                                                                                                 Total Dedicated
                                        Social Progress Trust Fund           Gift Fund             Collections
Balance Sheet
ASSETS
Fund Balance with Treasury             $                  13,309,392     $        1,355          $   13,310,747
Other Assets                                                   725,355                       -           725,355
  Total Assets                         $                  14,034,747     $        1,355          $   14,036,102
LIABILITIES AND NET POSITION
Cumulative Results of Operations                          14,034,747               1,355              14,036,102
  Total Liabilities and Net Position   $                  14,034,747     $        1,355          $   14,036,102
Statement of Net Cost
Program Costs                          $                   4,788,950     $               -       $    4,788,950
Less: Earned Revenues                                     (4,207,978)              (300)             (4,208,278)
Net Cost of Operations                 $                       580,972   $         (300)         $      580,672
Statement of Changes in Net Position
Net Position Beginning of Period       $                  14,615,719     $        1,055          $   14,616,774
Net Cost of Operations                                         580,972             (300)                 580,672
Net Position End of Period             $                  14,034,747     $        1,355          $   14,036,102




NOTE 15. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Obligations incurred and reported in the Statement of Budgetary Resources in 2013 and 2012 consisted of
the following:

                                                                  2013                            2012
Direct Obligations, Category A                             $      8,847,262                  $    9,194,408
Direct Obligations, Category B                                   17,373,336                      21,071,353
Reimbursable Obligations, Category A                                144,246                               -
Reimbursable Obligations, Category B                                 31,763                         850,000
Total Obligations Incurred                                 $     26,396,607                  $   31,115,761

Category A apportionments distribute budgetary resources by fiscal quarters.

Category B apportionments typically distribute budgetary resources by activities, projects, objects or a
combination of these categories.




                                                     48
NOTE 16. CUSTODIAL ACTIVITY

IAF’s custodial collection primarily consists of returned funds at IAF’s request from a grantee due to
funds mismanagement. The returned funds came from IAF’s appropriated fund (113/43100) which is no
longer available for use; therefore, the funds must be returned to Treasury. While these collections are
considered custodial, they are neither primary to the mission of IAF nor material to the overall financial
statements. IAF’s total custodial collections are $0 and $418 for the year ended September 30, 2013, and
2012, respectively.


NOTE 17. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

IAF has reconciled its budgetary obligations and non-budgetary resources available to its net cost of
operations.


                                                                        2013             2012
Resources Used to Finance Activities
Budgetary Resources Obligated
       Obligations Incurred                                          $26,396,607      $31,115,761
       Less: Spending Authority from Offsetting Collections and
       Recoveries                                                     (8,982,560)      (5,465,530)
       Obligations Net of Offsetting Collections and Recoveries      $17,414,047      $25,650,231
Other Resources
       Donations and Forfeitures of Property                            150,000               300
       Imputed Financing from Costs Absorbed by Others                  668,023           296,746
       Net Other Resources Used to Finance Activities               $ 818,023         $ 297,046
Total Resources Used to Finance Activities                          $18,232,070       $25,947,277
Resources Used to Finance Items Not Part of the
Net Cost of Operations
Total Resources Used to Finance Items Not Part of the Net Cost of
Operations                                                           $ 9,873,571     $ 2,159,218
Total Resources Used to Finance the Net Cost of Operations           $28,105,641     $28,106,495
Components of the Net Cost of Operations That
Will Not Require or Generate Resources in the
Current Period
Total Components of Net Cost of Operations That will not Require
       Generate Resources in the Current Period                          (54,251)         (28,431)
Net Cost of Operations                                               $28,051,390      $28,078,064




                                                    49
